Before the Committee on Oversight and Government Reform
United States House of Representatives




                          Top Ten OIG
For Release on Delivery
Expected at
10:00 a.m. EST
Tuesday
March 5, 2013             Recommendations for the
                          U.S. Department of
CC-2013-009



                          Transportation



                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Mr. Chairman and Members of the Committee:

Thank you for inviting me here today to discuss opportunities for maximizing efficiency
at the Department of Transportation (DOT). Each year, we recommend hundreds of
actions aimed at improving the conduct of the Department’s programs and operations,
and the Department has worked diligently to implement the majority of our
recommendations. To ensure recommendations are implemented in a timely manner, we
monitor their status and, as required by law, report semiannually on recommendations
that remain open 1—that is, those that have yet to be fully implemented and documented.
Periodically, Congress also asks us to identify open recommendations that we consider
high priority. Most recently, you requested that we identify and report our 10 highest
priority open recommendations in the near and long term. 2 In making this determination,
we considered several criteria, including dollar implications; documented vulnerabilities;
impact on safety, economy, or efficiency; and the ability of the Department to effect
change.

The open recommendations we identified as the highest priority were made between
January 2010 and October 2012 in 10 separate reports and cut across the Department and
its agencies. The highest priority open recommendations also align with the Department’s
top management challenges that we identified and reported last November (see exhibit).
My statement today will focus on how these recommendations impact the Department’s
ability to (1) ensure effective stewardship of the Department’s resources; (2) effectively
implement transportation infrastructure programs while protecting investments in these
programs; and (3) enhance aviation and surface safety.

SUMMARY
Three of the highest priority open recommendations that we reported in December 2012
aim to ensure effective stewardship of the Department’s resources. While DOT has
received a clean opinion on its financial statements 5 straight years, longstanding
weaknesses in grants management and information technology (IT) procurement and
security have limited DOT’s ability to maximize its return on investments. We
recommended that DOT conduct quarterly reviews of inactive grant projects to ensure
inactive obligations are liquidated in a timely manner. In July 2012, DOT initiated a
60-day effort to deobligate inactive undelivered orders, which resulted in $2.1 billion in
funds being re-assigned to current projects. We also recommended that DOT develop or
revise its IT enterprise architecture (EA) policy and procedures to realize cost savings,
reduce duplication of systems, and strengthen IT security through multifactor identity
authentication for all DOT employees and contractors. DOT plans to develop an

1
  Inspector General Act of 1978, 5 U.S.C. App 3, as amended by the Inspector General Act Amendments of 1988, Pub. L. No.
100-504.
2
  We looked at 637 recommendations included in 217 audit reports issued between September 2004 and November 2012 that
remained open as of December 10, 2012.

                                                                                                                           2
overarching EA policy by May 2013 and to fully implement an authentication mechanism
by fiscal year 2016.

Half of the highest priority recommendations we identified concern DOT’s
implementation of critical air and surface transportation infrastructure programs and the
need to protect significant investments in these programs. The Department is working to
address numerous challenges we have identified with the Federal Aviation
Administration’s (FAA) implementation of the Next Generation Air Transportation
System (NextGen)—a complex, multibillion-dollar effort to modernize the U.S. air traffic
control system. To ensure the program delivers promised benefits that represent sound
investments, we recommended that FAA (1) establish an integrated master schedule for
implementing NextGen’s foundational technology and infrastructure programs, which it
is currently working on, and (2) ensure cost estimates for realigning and consolidating the
Nation’s network of manned air traffic control facilities are comprehensive and regularly
updated. The Department is also working to address three recommendations we made to
maximize its surface infrastructure investments. Specifically, we recommended that the
Federal Highway Administration (FHWA) implement a data-driven, risk-based approach
for reviewing and revising DOT and State agreements for overseeing about $40 billion in
highway funds provided annually to States, and report regularly on States’ efforts to
improve the condition of the Nation’s more than 140,000 deficient bridges. 3 We also
recommended that the Federal Railroad Administration (FRA) complete a National Rail
Plan (NRP), with measurable performance goals and clear stakeholder roles, which
would ultimately help ensure its $10 billion high-speed intercity passenger rail grant
program supports national policy goals.

The last two highest priority open recommendations we identified have implications for
DOT’s number one priority—safety. While the Department’s commitment to safety is
clear, DOT continues to face challenges to fine-tune how it collects, verifies, and uses
safety data and to bolster its oversight of aircraft maintenance, inspector resources, and
pilot performance and training. Our recommendation that FAA collect and analyze
information on pilot domicile and commuting to better target solutions to reduce pilot
fatigue remains open and is one of our highest priority recommendations for the
Department to address in the short term. FAA agreed to conduct a “scan of available
data” on pilot commuting and to determine whether additional data could offer significant
safety benefits. In terms of surface safety, the Department has taken action to remove
unsafe commercial drivers and carriers from roadways. However, the Federal Motor
Carrier Safety Administration (FMCSA) has yet to implement our April 2012
recommendation to publish a final rule on passenger carrier leasing with requirements
comparable to those for property carriers.



3
 Deficient bridges are classified as structurally deficient—the bridge deck, superstructure, or substructure is in poor or worse
condition or functionally obsolete—because the geometry of the bridge is no longer suitable for the traffic it serves.

                                                                                                                                   3
BACKGROUND
As of February 21, 2013, 555 recommendations included in 191 audit reports issued
between September 2004 and February 14, 2013, remained open—that is, the Department
or agency has yet to fully implement proposed actions or to provide us with supporting
documentation of their implementation. The Department and its agencies frequently
concur with our recommended actions and work with us to ensure recommendations are
implemented in a timely manner. Some recommendations, however, remain open for an
extended period for various reasons, such as the complexity and magnitude of the
recommendation and the number of actions required to implement the recommendation.
In some cases, recommendations remain open because the Department or agency does
not concur with our recommended actions. In these cases, we work with the Department
or agency to seek alternative actions that meet the intent of our recommendation.

The Office of Inspector General (OIG) systematically tracks all recommendations on all
audit reports until final action has been taken, and maintains a database of related
information such as the target and actual completion dates of corrective actions, and the
amount of costs questioned or estimated dollar benefits associated with each
recommendation. As required by law, we report this information semiannually to
Congress. The Department has also established a system for tracking open OIG
recommendations and provides monthly reports to audit managers or groups on their
status, identifying those that are highest priority.

In addition to reporting semiannually on the status of our recommendations, we report
annually on the top management challenges facing the Department, as required by
Congress and the Office of Management and Budget (OMB). Our 2013 Top Management
Challenges report identified actions that DOT should take to address its top priority of
transportation safety and maximize its investments to maintain and modernize
transportation.

Over the past several years, Congress has also requested that we identify our highest
priority open recommendations. Most recently, this Committee asked us to identify our
highest priority open recommendations—five short-term and five long-term—which we
reported on December 21, 2012. To identify these 10 open recommendations, we
established criteria consistent with the Inspector General Act to promote economy and
efficiency in the administration of Department programs and operations, and the
Department’s safety mission. Specifically, for each recommendation, we considered the
potential impact on safety, economy, and efficiency; the documented vulnerabilities and
dollar implications; and the Department’s ability to effect change within a short
timeframe. We also refer to the top management challenges facing the Department and
our work plans and strategies. As the Department changes its priorities, we reevaluate our
criteria and adjust them accordingly.



                                                                                        4
ENSURING EFFECTIVE STEWARDSHIP OF THE DEPARTMENT’S
RESOURCES
Rigorous stewardship of taxpayer funds is an intrinsic mandate for any government body.
Over the past 5 years, the Department has successfully maintained a clean opinion on its
financial statements—a positive step towards good financial management. However,
longstanding weaknesses in grants management and IT procurement and security have
limited DOT’s ability to maximize its return on investment.

In November 2011, we reported that idle funds from undelivered orders under inactive
grants could free up approximately $1.4 billion for DOT agencies to use for other
transportation infrastructure improvement projects and create jobs. Accordingly, we
recommended that quarterly inactive project reviews be conducted to ascertain that
inactive obligations—with particular attention to those that are tied to stagnant or closed
projects—are liquidated in a timely manner. In July 2012, DOT initiated a 60-day,
resource-intensive remediation effort to identify and deobligate inactive undelivered
orders, which resulted in the liquidation of $2.1 billion—funds that were re-assigned to
current projects. For fiscal year 2013, DOT plans to issue a policy requiring agencies to
perform quarterly reviews and annual certifications of obligation balances and train
personnel who handle them. Implementing this recommendation will help the
Department begin correcting a persistent, systemic problem with unliquidated
obligations.

DOT also has the opportunity to maximize its investments in IT. Each year, DOT spends
approximately $3 billion on its IT systems—one of the largest IT investments in the
Federal Government. However, as we reported in April 2012, the Department lacks an
EA to align IT investments with its mission, reduce duplicative systems, effectively
spend information security funds, and realize cost savings. DOT concurred with our
recommendation to develop or revise its EA policy and procedures, and plans to develop
an overarching EA policy by May 2013. However, DOT indicated that it would need
funding to implement the policy and would commit to a completion date when funding
becomes available.

DOT also concurred with our long-term recommendation to implement the use of
personal identity verification (PIV) cards as the primary authentication mechanism for all
DOT employees and contractors. OMB required all Federal personnel to use by 2012 PIV
cards to log on to agency computers for multifactor user identity authentication. Issuing
PIV cards to all Department personnel, including contractors, is a time-consuming,
costly, and logistically complex endeavor. As of June 2012, only 42 percent of DOT’s
systems were enabled for user logon with PIVs, and only 7 percent used PIV for identity
authentication. DOT designated PIV card deployment for authentication as one of its top
cybersecurity priorities for fiscal year 2013 and plans to implement our recommendation
by fiscal year 2016.

                                                                                         5
EFFECTIVELY IMPLEMENTING TRANSPORTATION
INFRASTRUCTURE PROGRAMS WHILE PROTECTING INVESTMENTS
IN THESE PROGRAMS
Global and domestic travel are projected to significantly increase demand on the Nation’s
transportation system, creating considerable challenges for the Department to improve
airspace and surface infrastructure. A key concern is FAA’s implementation of NextGen,
a highly complex, multibillion-dollar effort to modernize the U.S. air traffic control
system. The Department is working hard to address numerous challenges we have
identified over the years, but several challenges remain to ensure the program delivers
promised benefits that represent sound investments of taxpayer dollars.

Two of the highest priority open recommendations relate to NextGen’s development and
implementation, which currently involve a $1 billion annual investment:

• In April 2012, we recommended that FAA establish an integrated master schedule for
  implementing the six programs that will provide NextGen’s foundational technologies
  and infrastructure. 4 A master schedule, with timelines and completion dates, would
  better coordinate these programs’ capabilities—many of which are interdependent.
  Without a master schedule, the agency will be challenged to (1) fully address
  operational, technical, and programmatic risks; (2) prioritize and make informed
  tradeoffs for programs’ costs and schedules; and (3) determine what capabilities
  should be delivered first to provide users with the greatest benefits. FAA is currently
  working on the integrated master schedule.

• In July 2012, we recommended that FAA develop comprehensive and regularly
  updated cost estimates for its effort to realign and consolidate the Nation’s network of
  manned air traffic control facilities into centralized locations—a critical step in
  implementing NextGen and replacing the Nation’s aging air traffic infrastructure. The
  effort, which FAA estimated would cost in the billions of dollars, would have
  impacted facilities across the National Airspace System with respect to cost, technical
  challenges, and the aviation workforce. FAA concurred with our recommendation but
  has since scaled back its plans and will focus only on an integrated facility in the New
  York metropolitan area. FAA expects to provide a detailed cost estimate by
  December 31, 2014; but to completely implement our recommendation, FAA will
  need to produce detailed financial information for Congress and other stakeholders
  regarding its longer term plans for facility realignments and consolidations.




4
 These six programs are Automatic Dependent Surveillance-Broadcast, System Wide Information Management, Data
Communications, NextGen Network Enabled Weather, NAS Voice System, and Collaborative Air Traffic Management
Technologies.

                                                                                                               6
At the same time, the Department faces challenges maximizing its investments in
highway, bridge, and rail infrastructures through effective grant oversight and planning.
Closing three open recommendations that we identified as highest priority would help
address these challenges.

• Federal law requires DOT and States to enter into stewardship and oversight
  agreements that establish Federal and State responsibilities for overseeing about
  $40 billion in highway funds provided annually to States. While FHWA fulfilled the
  statutory mandate to enter into these with each State, the agreements do not
  consistently reflect Federal requirements or program risks and priorities that FHWA
  has identified and communicated to its Division Offices. Accordingly, we
  recommended in October 2012 that FHWA implement a coordinated and effective
  data-driven, risk-based approach for Division Offices and Directors of Field Services
  to review agreements annually and make timely revisions, when appropriate. FHWA
  initially planned to implement this recommendation and others from our report
  through its Program of Oversight Initiatives—oversight planning performed by its
  Division Offices. However, FHWA recently informed us that it now plans to align its
  approach for reviewing stewardship and oversight agreements with its risk
  management process, an action it plans to implement in June 2013. We are currently
  reviewing FHWA’s plans.

• FHWA estimates that almost one-fourth of the Nation’s more than 600,000 bridges
  have major deterioration, structural cracks, or other deficiencies. Given the limited
  funding to address these deficiencies, we have reported since 2006 the need to
  improve the quality of inspection data and implement data-driven, risk-based
  oversight of States’ bridge programs. In January 2010, we recommended that FHWA
  report regularly to internal and external stakeholders on the effectiveness of States’
  efforts to improve the condition of the Nation’s deficient bridges based on the
  analysis of Highway Bridge Program expenditure data and an evaluation of progress
  made in achieving performance targets. Such action will also be critical to help
  FHWA meet new requirements for more performance-based management of highway
  bridges in the Moving Ahead for Progress in the 21st Century Act. 5 DOT agreed to
  develop a new template by the end of 2013 to report on States’ efforts to address
  deficient bridges and to take steps by 2015 to enhance the level of detail reported on
  bridge conditions.

• One of the Department’s most ambitious and costly mandates is to develop a national
  high-speed rail system, with an initial down payment of $10 billion. The Passenger
  Rail Investment and Improvement Act of 2008 6 calls for FRA to develop an NRP to
  provide a framework for the integration of passenger and freight rail across the
  country so that public and private stakeholders understand their roles in developing

5
    Moving Ahead for Progress in the 21st Century Act (MAP-21), Pub. L. No. 112-141 (2012).
6
    Passenger Rail Investment and Improvement Act of 2008 (PRIIA), Pub. L. No. 110-43.

                                                                                              7
    services and can invest with certainty. When complete, the NRP will also identify
    specific interstate corridor goals and measures of success. Delays in establishing the
    NRP could result in FRA investing billions of dollars in Federal grant funds without
    assurance that these efforts support national policy goals, and stakeholders could
    remain reluctant to commit. We recommended that FRA complete an NPR that
    includes measurable performance goals and clear stakeholder roles. FRA currently
    expects to complete the plan by June 2014.

ENHANCING AIR AND SURFACE SAFETY
Enhancing aviation and surface safety continues to be the Department’s overarching
priority. This past year, the Department has made important progress toward meeting new
airline safety regulations to advance air carriers’ voluntary safety programs and improve
pilot rest requirements. Despite this progress, the Department continues to face
challenges to fine-tune how it collects, verifies, and uses safety data and to bolster its
oversight of aircraft maintenance, inspector resources, and pilot performance and
training.

According to the Air Line Pilots Association, roughly 60 percent of its pilots are
commuters. 7 Our recommendation that FAA collect and analyze information on pilot
domicile and commuting to better target solutions to reduce pilot fatigue—a longstanding
concern that has been linked to air-related fatalities—remains open and is one of our
highest priority recommendations for the Department to address in the short term. FAA
agreed to conduct a “scan of available data” on pilot commuting and to determine
whether additional data could offer significant safety benefits. According to FAA, the
Agency planned to complete this work by February 2013. However, we are currently
awaiting its response to our request for a status update.

In terms of surface safety, the Department has taken actions to remove unsafe
commercial drivers and carriers from roadways. However, FMCSA has yet to implement
our April 2012 recommendation to publish a final rule on passenger carrier leasing with
requirements comparable to those for property carriers. This recommendation is similar
to one made by the National Transportation Safety Board (NTSB) following its
investigation of a fatal bus crash in 2008. NTSB determined the bus company was, in
effect, shielded from FMCSA oversight because of a lease agreement with another
company. FMCSA concurred with our recommendation and plans to issue a proposed
rule in 2013.



7
  Commuting is a common aviation industry practice as pilots are not required to live within close proximity of their assigned
duty locations. Many pilots reside hundreds or thousands of miles from their duty locations, and their commutes frequently
involve cross-country air travel. For example, the National Transportation Safety Board’s Colgan investigation revealed that out
of 136 Newark-based Colgan pilots, 49 (36 percent) had commutes of at least 400 miles, with some commuting from States such
as California, Nevada, and Washington.

                                                                                                                               8
CONCLUSION
OIG is steadfast in its commitment to ensuring DOT achieves the highest return on the
Nation’s substantial transportation investments. As part of this commitment, we keep a
close eye on the recommendations we make to improve Department programs and
operations—particularly those of the highest priority—and work with the Department to
ensure recommended actions are fully implemented as expeditiously as possible. We
believe the Department shares this commitment with us, as evidenced by its many
actions, cooperation with our office, and monthly reporting on the status of our
recommendations. We will continue to work with you, Mr. Chairman; the Department;
and other key stakeholders to protect taxpayer dollars as we assist the Department in
providing the American people with safe and modern air, highway, rail, and pipeline
systems.

Mr. Chairman, this concludes my prepared statement. I am happy to answer any
questions you or other Committee members may have.




                                                                                    9
EXHIBIT. OIG OPEN RECOMMENDATIONS AS THEY RELATE TO THE
DEPARTMENT’S TOP MANAGEMENT CHALLENGES


Ensuring the Next Generation Air Transportation System Advances Safety and Air Travel

FAA       Establish an integrated master schedule framework,         Status of Transformational
          policy, and standard operating procedures that include     Programs and Risks to Achieving
          the Segmented Implementation Plan and                      NextGen Goals, AV-2012-094, April
          transformational programs, and a timeline for maturing     2012
          this capability.

FAA       To assist FAA in achieving a successful air traffic        The Success of FAA’s Long-Term
          facility realignment and consolidation plan, the Agency    Plan for Air Traffic Facility
          should develop comprehensive and regularly updated         Realignments and Consolidations
          cost estimates that include, at a minimum, estimates       Depends on Addressing Key
          for construction, equipment, increased salaries,           Technical, Financial, and Workforce
          relocation expenses, and training.                         Challenges, AV-2012-151, July
                                                                     2012

Enhancing FAA’s Oversight and Use of Data To Identify and Mitigate Safety Risks

FAA       Ensure the collection and analysis of data regarding       FAA and Industry Are Taking Action
          domicile and commuting length for all Part 121 flight      To Address Pilot Fatigue, but More
          crews. Specifically, information regarding the number      Information on Pilot Commuting Is
          of pilots and other flight-crewmembers who commute,        Needed, AV-2011-176,
          their methods of transportation, and the distances they    September 2011
          commute, should be collected.

Strengthening Existing Surface Safety Programs and Effectively Implementing New Safety
Requirements

FMCSA     Publish a final rule on passenger carrier leasing with     Timely and Targeted FMCSA
          requirements similar to those for property carriers.       Action Is Needed To Fully Address
                                                                     NTSB Recommendations for
                                                                     Improving Passenger Carrier
                                                                     Oversight, MH-2012-087, April
                                                                     2012

FHWA      Report regularly to internal and external stakeholders     Assessment of FHWA Oversight of
          on the effectiveness of States’ efforts to improve the     the Highway Bridge Program and
          condition of the Nation’s deficient bridges based on the   the National Bridge Inspection
          analysis of Highway Bridge Program expenditure data        Program, MH-2010-039, January
          and an evaluation of progress made in achieving            2010
          performance targets.

Maximizing Surface Infrastructure Investments With Effective Program Oversight and Execution
of New Legislative Requirements

FHWA      Implement a coordinated and effective data-driven,         Improvements to Stewardship and
          risk-based approach for Division Offices and Directors     Oversight Agreements Are Needed
          of Field Services to review agreements annually and        To Enhance Federal-Aid Highway
          make timely revisions, when appropriate.                   Program Management, MH-2013-
                                                                     001, October 2012

                                                                                                         10
Adequately Overseeing Administration of High-Speed Intercity Passenger Rail Grant Funds
FRA       Complete the National Rail Plan and include in it         FRA Has Made Progress in
          measurable performance goals and clear stakeholder        Implementing PRIIA
          roles.                                                    Responsibilities, but Challenges for
                                                                    Long-Term HSIPR Remain, CR-
                                                                    2012-072, March 2012
Strengthening Financial Management Over Grants To Better Use Funds, Create Jobs, and
Improve Infrastructure
DOT       Clifton Gunderson recommended that DOT                    Quality Control Review of DOT’s
          management ensure that Operating Administrations          Audited Consolidated Financial
          perform the quarterly inactive project reviews to         Statements for Fiscal Years 2011
          ascertain that inactive obligations are liquidated in a   and 2010, QC-2012-009,
          timely manner throughout the year. Particular attention   November 2011
          should be paid to stagnant or closed projects.
Managing and Securing Information Systems To Efficiently Modernize Technology Infrastructure
and Protect Sensitive Data From Compromise
DOT       Develop and/or revise the Department’s Enterprise         DOT Does Not Have an Effective
          Architecture (EA) policy and procedures to address the    Enterprise Architecture Program for
          following: development, maintenance, and use of EA in     Management of Information
          the IT investment process.                                Technology Changes, FI-2012-086,
                                                                    April 2012
DOT       Implement the use of personal identity verification       Timely Actions Needed To Improve
          (PIV) cards as the primary authentication mechanism       DOT's Cybersecurity, FI-2011-022,
          to support multifactor authentication at the system and   November 2010
          application level for all DOT employees and
          contractors.




                                                                                                       11
